<html>
<title> - NOMINATIONS OF HON. CHRISTINE M. GRIFFIN AND STUART G. NASH</title>
<body><pre>[Senate Hearing 111-687]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-687
 
      NOMINATIONS OF HON. CHRISTINE M. GRIFFIN AND STUART G. NASH 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATIONS OF HON. CHRISTINE M. GRIFFIN TO BE DEPUTY DIRECTOR, OFFICE 
  OF PERSONNEL MANAGEMENT, AND STUART G. NASH TO BE ASSOCIATE JUDGE, 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                             JULY 16, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-112 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
  Christine S. Khim, Counsel, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
Jennifer A. Hemingway, Counsel, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk

























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     5
Prepared statements:
    Senator Akaka................................................    25
    Senator Voinovich............................................    27

                               WITNESSES
                        Thursday, July 16, 2009

Hon. John F. Kerry, a U.S. Senator from the State of 
  Massachusetts..................................................     2
Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     6
Hon. Christine M. Griffin to be Deputy Director, Office of 
  Personnel Management...........................................     7
Stuart G. Nash to be Associate Judge, Superior Court of the 
  District of Columbia...........................................    19

                     Alphabetical List of Witnesses

Griffin, Hon. Christine M.:
    Testimony....................................................     7
    Prepared statement...........................................    30
    Biographical and financial information.......................    33
    Responses to pre-hearing questions...........................    41
    Letter from the Office of Government Ethics..................    77
    Responses to post-hearing questions for the Record...........    78
    Letter of support from Senator Kennedy.......................    29
Kerry, Hon. John F.:
    Testimony....................................................     2
Nash, Stuart G.:
    Testimony....................................................    19
    Prepared statement...........................................    86
    Biographical and financial information.......................    88
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     6

                                APPENDIX

Hon. Edward M. Kennedy, a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    28


      NOMINATIONS OF HON. CHRISTINE M. GRIFFIN AND STUART G. NASH

                              ----------                              


                        THURSDAY, JULY 16, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The hearing of the U.S. Senate Committee on 
Homeland Security and Governmental Affairs will now come to 
order.
    Good morning and welcome. Today, the Committee on Homeland 
Security and Governmental Affairs meets to consider the 
nomination of Christine Griffin to be the Deputy Director of 
the Office of Personnel Management (OPM).
    Ms. Griffin is a native of Boston, Massachusetts, and a 
graduate of the Massachusetts Maritime Academy and the Boston 
College Law School.
    Ms. Griffin is a veteran and a lifelong public servant who 
began demonstrating her commitment to her country at an early 
age. Immediately after graduating from high school, Ms. Griffin 
enlisted in the U.S. Army and served on active duty for 3 years 
during the Vietnam War. After completing her active service, 
Ms. Griffin served an additional 2 years on reserve duty.
    We thank you very much for your dedicated service during 
that difficult time of war.
    After graduating from the Massachusetts Maritime Academy, 
Ms. Griffin began work with the U.S. Food and Drug 
Administration (FDA) as a mechanical engineer and field 
investigator. Ms. Griffin also has served as Executive Director 
of the Boston Disability Law Center.
    In 2005, Ms. Griffin was unanimously confirmed by the U.S. 
Senate to become a member of the U.S. Equal Employment 
Opportunity Commission (EEOC). Ms. Griffin is the first female 
with a physical disability to serve as a commissioner in the 
history of the EEOC.
    Ms. Griffin has been a leading advocate for improving the 
opportunities available to physically disabled Americans and is 
an advocate in particular for disabled veterans. Ms. Griffin 
has played a key role in increasing the number of physically 
disabled workers in the Federal Government.
    As the Chairman of both the Oversight of Government 
Management, the Federal Workforce, and the District of Columbia 
Subcommittee and the Veterans Affairs Committee, I understand 
the critical importance of these efforts, and I look forward to 
hearing about your very important work in this area. But before 
I say another word, I want to introduce my friend Senator Kerry 
and ask him to continue the introduction of Ms. Griffin.
    Senator Kerry.

TESTIMONY OF HON. JOHN F. KERRY, A U.S. SENATOR FROM THE STATE 
                        OF MASSACHUSETTS

    Senator Kerry. Well, thank you, Senator Akaka. Thank you 
for your kind words about the nominee and for the privilege of 
letting me be here to introduce Ms. Griffin.
    I apologize, I was outside, but I am happy to say that I 
was on the phone with Senator Kennedy and his wife, Vicki, both 
of whom are enormously supportive of the nominee and want to 
extend their good wishes.
    I am really here both on my own behalf as well as Senator 
Kennedy's behalf. I know he is in our thoughts a lot right now 
but more so when we get to see a nominee who embodies the 
virtues and engages in the battles for which Senator Kennedy 
has fought for about half a century now. I think it is fair to 
say that Ted Kennedy has done more than any Senator in the 
history of this institution to advance the cause of Americans 
with disabilities. I know because he just told me how much he 
wishes he was here to salute this nominee and to introduce her 
himself.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Kennedy appears in the 
Appendix on page 28.
---------------------------------------------------------------------------
    Ms. Griffin is a friend and a longtime partner in the equal 
rights struggle and now a nominee for the very important post 
of Deputy Director of the Office of Personnel Management.
    If I could just say, Mr. Chairman, Senator Voinovich, 
before becoming America's 26th President, Teddy Roosevelt 
helped another reformer President, Benjamin Harrison, to fix 
the Federal Civil Service system, and he wanted it to be 
professional, driven by merit rather than patronage, and open 
to all. Today, the former President and former Civil Service 
Commissioner is the namesake of the OPM's building, and in many 
ways we are still struggling with the same issues. We need 
highly competent and devoted public servants like Christine 
Griffin to help ensure that Federal hiring reflects our ideals.
    Like Teddy Roosevelt, Christine Griffin is a trailblazer. 
In the mid-1970s, as you mentioned, she served on active duty 
in the Army. She was one of only 11 women, Mr. Chairman, in the 
second coed class at the Massachusetts Maritime Academy.
    I know she is fond of saying that the engineer on a 
merchant ship is more in charge of the ship than the captain, 
and as a lieutenant in the Navy, I am going to respectfully 
disagree with her. [Laughter.]
    But I admire her training and her moxie. In her third year 
at the Academy, Mr. Chairman, a car accident confined Christine 
to a wheelchair, but she has never truly been confined to it. 
Her spirit is much bigger than that, her energy, her direction, 
and more importantly, she never has allowed that disability to 
define her.
    Instead, she thrived as a lawyer and as a public servant. 
She earned a law degree from my alma mater, Boston College Law 
School, and won the prestigious Skadden Fellowship when she 
graduated. She became Executive Director of the Disability Law 
Center in Boston from 1996 to 2005 when she was named one of 
the Nation's 11 Lawyers of the Year by Lawyers Weekly USA.
    She was then appointed by President Bush and confirmed 
unanimously by the Senate to serve on the U.S. Equal Employment 
Opportunity Commission.
    Christine will take on a leadership position inside the 
organization that is the chief architect of the human resources 
agenda for 1.9 million Federal employees nationwide. This is an 
important job. Among the OPM's primary responsibilities are 
crafting improved Federal recruitment strategies, expediting 
the hiring process for Federal positions, and attracting a 
diverse group of men and women with a rich mix of talents to 
serve in America's Civil Service.
    I am 100 percent plus confident of Christine's ability to 
execute those responsibilities with enormous distinction. She 
is a person who literally embodies all that we hope for in 
public servants. She is smart. She is accomplished. She is 
courageous. She is independent. And I think she is deeply 
committed to the values and principles embodied in the job that 
she has been named for.
    So I am really proud on behalf of Massachusetts and Senator 
Kennedy to introduce her to you.
    Ms. Griffin. Thank you very much.
    Senator Akaka. Thank you very much, Senator Kerry.
    Senator Kerry. If you will forgive me for having to leave, 
I appreciate it.
    Senator Akaka. Thank you very much. Thank you for your 
introduction. I know you have a very busy schedule. So I am 
pleased that you were able to make it today, and thank you so 
much for mentioning Senator Kennedy and, in a sense, 
representing him in this introduction.
    Senator Kerry. Thank you so much.
    Senator Akaka. Thank you.
    Ms. Griffin, I want to congratulate you on your nomination 
and welcome you and your family, in particular, your husband, 
Philip, who is here today with you. I understand that you have 
some family and friends here, and I should also add, 
supporters, in the audience today, and I want to give you an 
opportunity to introduce them to the Committee. Will you please 
do that at this time?
    Ms. Griffin. Thank you. You actually mentioned my husband, 
Philip.
    This is my nephew, Griffin Doherty, and he is a staffer who 
works in Senator Kennedy's office.
    There are a lot of people here, way too many for me to 
introduce, but there are folks from OPM. There are folks from 
the EEOC. There are, I know, a number of people from the 
disability community in various Federal agencies and nonprofit 
organizations in Washington, DC, and my colleague from the 
Commission, Commissioner Barker, is here. People on my staff--
Jo Linda Johnson and Steve Zanowic are here--and I am sure you 
know some of the other folks that you have been working with 
from OPM over the years.
    But thank you for allowing me to do that.
    Senator Akaka. Well, thank you very much for that 
introduction.
    Again, let me express my aloha and welcome to all of you. 
We are very happy to have all of you here.
    Now, Ms. Griffin, I look forward to hearing from you about 
your vision for OPM and your thoughts on addressing the vast 
human capital challenges the government is facing. As we all 
know, it is a crucial time for the Federal Government and the 
Federal workforce. With an economy that is continuing to 
struggle, people are looking to the Federal Government for 
effective leadership. An increasing number of young people are 
looking to the Federal Government as well for meaningful 
careers. Having the right talent in place from the most senior 
officials down to front-line employees is more important now 
than ever.
    If confirmed, you, along with Director Berry, must confront 
the pressing challenges of helping agencies meet their 
workforce needs. With nearly half of the current Federal 
workforce being eligible for retirement by 2012, we will be 
looking for a new generation of Federal employees who may have 
different career expectations than their predecessors. We must 
work now to make the Federal Government the employer of choice 
in our country. In particular, we must reform the broken hiring 
process, which takes too long and places too much burden on 
applicants.
    I appreciate the work OPM has been doing on this issue with 
assistance from the Office of Management and Budget for the 
first time. As you know, Senator Voinovich and I have 
introduced the Federal Hiring Process Improvement Act, S. 736, 
to streamline and improve the Federal hiring process. We 
strongly believe that legislation is needed to ensure that OPM 
and the agencies have all of the tools needed to ensure full 
and effective governmentwide implementation of hiring reform. 
We look forward to hearing your thoughts on this issue.
    The hiring process is not the only part of this equation 
that needs to be changed. Supervisors play a key role in 
motivating and retaining the most talented Federal employees. 
Research shows that strong senior leadership in Federal 
agencies is among the most important elements of employee 
satisfaction. Supervisors must be trained to increase employee 
productivity without undermining employees' rights and 
protections. I have introduced the Federal Supervisor Training 
Act, S. 674, to provide initial and ongoing training to 
supervisors in the Federal workforce.
    I know that Senator Voinovich is committed to improving 
performance management as well, and I look forward to working 
with you, Ms. Griffin, and with Senator Voinovich as we move 
forward on these important issues.
    During the last Congress, I introduced a bill to 
reestablish labor-management partnerships in the Federal 
sector. I understand that the Obama Administration is 
considering reestablishing these partnerships, and I have not 
yet reintroduced my bill to allow the new Administration time 
to work through the issue.
    I encourage you to ensure that OPM is doing all it can to 
facilitate the reestablishment of these valuable partnerships. 
More broadly, I hope all of your work to improve and reform 
Federal personnel systems is based on working closely with 
Federal employees and their representatives.
    My good friend and partner, Senator Voinovich, and I have 
sat on this Committee for a number of years. Senator Voinovich 
is a true leader--I call him a champion in Federal workforce 
issues--and has demonstrated his commitment in his years on 
this Committee to improve all aspects of our Federal workforce.
    Senator Voinovich, I would like to continue to work on this 
as long as we can and as quickly as we can.
    At this point, I would like to call on Senator Voinovich 
for his opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Senator Akaka, thank you for your very 
generous words. I think that we have had a great partnership 
for 10 years and have tried conscientiously to make a 
difference in terms of our Federal workforce.
    Senator Akaka is right, Ms. Griffin. I am going to finish 
up next year, and there is a list of things at OPM that I want 
to see get done.
    I would like to thank your family for the sacrifice they 
have made so that you can serve. They are going to make even 
more sacrifices if you are confirmed by the Senate, which I 
think you will be. I thank them in advance for it. This is 
tough work and long hours.
    During my tenure on this Committee, we have spent a great 
deal of time reviewing our government's efforts to find and 
hire the best and brightest employees that the private sector 
hires at higher salaries and better benefits. I think in this 
instance the Office of Personnel Management and the District of 
Columbia have found extremely qualified candidates for 
positions.
    Mr. Chairman, since you and I have discussed the nominee's 
background and qualifications, I will not go into the details. 
You have done that.
    Ms. Griffin, I will be following with great interest your 
work with Director Berry to reinvigorate the Office of 
Personnel Management. We had a wonderful discussion in my 
office. I would like to suggest to Senator Akaka when we get 
back from recess that you and Director Berry could come in and 
see us privately to talk about your priorities.
    Mr. Nash will appear next, and I want to say that I 
appreciate his distinguished education and background. He has 
also devoted more than a decade to his career in public 
service, and I am pleased that he is willing to continue 
serving his community further at the D.C. Superior Court.
    I look forward to hearing from both of the nominees about 
their education, experience, and why they have sought their 
respective positions.
    Mr. Chairman, I hope that the Committee can vote on these 
nominations as soon as possible because I think the court needs 
Mr. Nash and OPM needs Ms. Griffin. Thank you.
    Senator Akaka. Thank you very much, Senator.
    I would like to now call a person who has served the 
District of Columbia so well for many years in the U.S. House 
of Representatives and continues to do so, and we are very 
happy to continue to work with her on many pioneering issues 
for the District. I am delighted to have her here to add to the 
introduction of Mr. Nash.
    Will you please do that at this time?

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Well, thank you very much, Mr. Chairman. I 
thank you, Senator Akaka, for your long service to the city on 
this Committee and you, Senator Voinovich, for service in so 
many ways, especially on the District of Columbia Tuition 
Assistance Grant (DC TAG) bill, which has met the promise that 
both of you knew it would.
    This is the bill that allows so many more District 
residents to go to college because we do not have a State 
university system. But because of your work in getting this 
bill through, we have virtually doubled college attendance 
here. I want to take this moment to offer my particular thanks 
on that very important score.
    It is always a pleasure to introduce a judge for an Article 
I court, in this case, Stuart Nash for Associate Judge of the 
Superior Court of the District of Columbia. I believe you will 
find him a particularly well-qualified nominee, with a strong 
law enforcement background, in particular, coming from the 
Organized Crime Drug Enforcement Task Forces program, which he 
directed.
    We are very pleased with his local work as a U.S. Attorney 
here for 7 years. He was counsel to the Judiciary Committee. 
Before that, he was in private practice at Williams and 
Connolly.
    And, he has a strong academic background: Duke University, 
magna cum laude; and Harvard Law School, magna cum laude. We 
are particularly pleased when our residents who are equipped 
with this background also involve themselves in local work, and 
Mr. Nash has worked with the D.C. Bar Pro Bono Program, Advice 
and Referral Clinic, which is absolutely necessary and 
important work that our attorneys in private practice and 
public practice do to help people who cannot afford attorneys.
    And, I have to say how grateful I am to him for his work 
for Trees for Capitol Hill.
    I think you will find that this candidate more than meets 
the Committee's expectations, and I thank you for considering 
him.
    Senator Akaka. Thank you very much, Delegate Norton, and we 
appreciate your introduction. I know you have a busy schedule 
too and wish you well.
    Ms. Norton. Thank you.
    Senator Akaka. And now I would like to return to Ms. 
Griffin.
    Mr. Nash, welcome, and we will get back to you.
    Ms. Griffin has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had her financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the hearing record with 
the exception of the financial data, which is on file and 
available for public inspection at the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. So I ask 
that you please raise your right hand.
    Do you solemnly swear that the testimony that you are about 
to give this Committee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Griffin. I do.
    Senator Akaka. Thank you very much. Let it be noted in the 
record that the witness answered in the affirmative.
    Ms. Griffin, will you please proceed with your statement?

  TESTIMONY OF THE HON. CHRISTINE M. GRIFFIN\1\ TO BE DEPUTY 
            DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT

    Ms. Griffin. Good morning, Mr. Chairman. Please allow me to 
begin by thanking you, Ranking Member Voinovich, and the 
Members of the Committee for holding this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Griffin appears in the Appendix 
on page 30.
---------------------------------------------------------------------------
    Thanks also to Senator Kerry for his kind introduction and 
taking the time to come here.
    I would also like to express my gratitude to Senator 
Kennedy, who could not be here today, but who has supported and 
encouraged me for many years and continues to do so. There is 
not a person with a disability in this country who has not 
benefited by legislation that Senator Kennedy has helped pass.
    One other person I want to thank for support is former 
Congressman Tony Coehlo. No one is more passionate about 
employment of people with disabilities than Tony Coehlo, and he 
emailed me this morning and said that he is here in spirit.
    And I would also like to thank my husband, Philip, who you 
acknowledged. And you are right, Senator Voinovich. He, as my 
champion and supporter, will endure a lot as he has in the past 
for me to be able to pursue my interest in public service, and 
I did warn him about the long hours.
    When I was a child, the importance of serving the public 
was stressed at home and reinforced at school. My father worked 
for the Federal Government for 39 years before retiring. He 
began his Federal career right here as a clerk in Washington, 
DC, during the Depression. He moved to Washington, DC, for an 
entry-level Federal job because, during that time, jobs in 
Boston were very scarce. He eventually transferred to another 
Federal position in Boston so he could marry my mother.
    Unfortunately, neither of them could be here today, yet I 
know it is because of them that I am here.
    I began my career, as you mentioned, serving our country as 
a Private in the U.S. Army in 1974. There were seven children 
in my family, and while we were not, I would say, poor, money 
for college was not readily available. The G.I. Bill was my 
ticket to a college education.
    After leaving the Army, I entered Massachusetts Maritime 
Academy with the five other women who made up only the second 
class of women to ever go there.
    After college, I returned to public service as a GS-7 
mechanical engineer for the Food and Drug Administration. I 
spent 7 years with the FDA, testing medical devices and 
inspecting medical device manufacturers. It was this job and 
the investigations that I worked on that gave me the desire to 
go to law school.
    While a student at Boston College Law School, as you heard, 
an alma mater that Senator Kerry and I share, I learned about 
the areas of law that would prepare me for the next 16 years of 
public service. After a Skadden Fellowship at the Disability 
Law Center, I worked as an attorney advisor for the EEOC Vice 
Chair, Paul Igasaki, before returning to the Disability Law 
Center as the Executive Director, a position I held for 10 
years.
    Since January 2006, I have served as a Commissioner and, 
more recently, the Acting Vice Chair of the EEOC.
    During the past 3\1/2\ years, I have truly come to 
understand how important our Federal workforce is to the 
security, health, and well-being of the Nation. I also know 
that OPM's mission is to ensure that the Federal Government has 
an effective civilian workforce. OPM must ensure that the men 
and women who are responsible for the security, health, and 
well-being of our Nation are the best our Nation has to offer 
and that they reflect all of our Nation's citizens, including 
those of us with disabilities.
    In a message addressed to the employees of the Federal 
Government soon after taking office, President Kennedy stated, 
``Government service must be attractive enough to lure our most 
talented people. It must be challenging enough to call forth 
our greatest efforts. It must be interesting enough to retain 
their services. It must be satisfying enough to inspire single-
minded loyalty and dedication. It must be important enough to 
each individual to call forth reserves of energy and 
enthusiasm.''
    Those words ring as true today as they did 48 years ago.
    I believe it is OPM's highest calling to strive to make 
working in the Federal Government the most attractive 
employment opportunity available in the country--in other 
words, to make the Federal Government an employer of choice 
when competing for the best and the brightest talent available. 
To do that, we must simplify and shorten the Federal hiring 
process so that it encourages rather than discourages 
applicants. I know Director Berry has already begun working 
with Federal agencies to address hiring issues, and if 
confirmed, I look forward to assisting him in these efforts.
    Certainly, the work of the Federal Government has never 
been more challenging. One of OPM's greatest challenges is to 
increase the diversity of our workforce at all levels. As 
Deputy Director, I would work tirelessly with Director Berry 
and the staff at OPM to enhance the diversity of our Federal 
employees--not just diversity in traditional terms of race, 
gender, national origin, sexual orientation, and disability, 
but also with respect to our many cultures, our generational 
divide, and our multifaceted talent pool.
    If we wish to open the door to a diverse, talented 
workforce, we also need to work tirelessly to give Federal 
workers opportunities for training and development. We must 
provide continuing training and leadership development as well 
as advancement opportunities so that our employees stay 
interested in their work and we continue to retain a well-
trained and dedicated workforce.
    Whether you are a file clerk or a project manager, a GS-3 
or someone in the Senior Executive Service (SES), every 
employee must believe in the usefulness of the work he performs 
and be dedicated to facing the challenges and changes that lie 
ahead.
    All employees must be treated fairly and respectfully, from 
the maintenance worker who keeps the environment around the 
computers in our air traffic control towers clean, to the 
technician who keeps those computers up and running, to the air 
traffic controller who uses that same computer to safely guide 
our planes home. Each of these employees must be committed to 
the work he performs, for even the smallest failure could lead 
to disaster.
    I am willing and eager to serve our country alongside 
Director Berry, the staff at OPM, and the men and women who 
make up our Federal workforce. As someone who started her 
Federal career at the entry level, I have a deep appreciation 
for the work of our Civil Service and the opportunities it 
provides.
    I want all of you to know that I will take my 
responsibilities as Deputy Director very seriously. I look 
forward to working with you to make our Federal Government the 
model employer that Theodore Roosevelt talked about in 1885 and 
that the American people deserve today.
    Thank you for your time, and I look forward to your 
questions.
    Senator Akaka. Thank you very much for your statement. I 
will begin with the standard questions this Committee asks of 
all nominees and require your answer.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Griffin. No, Senator.
    Senator Akaka. Second, do you know of anything personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Griffin. No, Senator.
    Senator Akaka. Third, do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Griffin. Yes, Senator.
    Senator Akaka. Thank you. Thank you very much.
    The Federal Government currently is facing a number of 
significant human capital challenges, several of which I have 
highlighted in my opening statement. With so many challenges, 
what will be your top priorities if you are confirmed as Deputy 
Director of OPM?
    Ms. Griffin. I mention them in my statement. I think the 
hiring process is a big priority. I do think that we have to 
find a way to, as I said, simplify and shorten the process, and 
I know there is some work underway, and I appreciate the 
legislation that you filed regarding this as well. I think we 
really need to start looking at the front end of how people 
actually come into the Federal Government.
    The other thing I mentioned is diversity at all levels, but 
I am very cognizant of the legislation regarding diversity in 
the SES ranks of the Federal Government, and I support that and 
think that is important for us to undertake.
    I think there are a number of things that are underway at 
OPM that I am looking forward to learning about, but those are 
two of the issues that I am interested in looking at, as well 
as veterans' preference issues.
    I think over the last few years, I have come to realize 
that some agencies probably do not use the veterans' preference 
appropriately, and there seems to be some misunderstanding 
about it. I think we can do a lot to provide more guidance to 
the agencies about veterans' preference and how it can be used 
more effectively. I think it is important that our veterans 
returning from Iraq and Afghanistan and, frankly, being 
discharged from any military installation in this country have 
the opportunity to work in the Federal Government and that they 
have the preference that this legislation was created to give 
them. So that is something else I would be very interested in 
working on.
    Senator Akaka. Thank you.
    During your time at the Equal Employment Opportunity 
Commission, you have focused on increasing diversity in the 
Federal Government. In June, I introduced a bill, S. 1180, to 
improve diversity in the Senior Executive Service. That measure 
required the creation within OPM of the Senior Executive 
Service Resource Office (SESRO), which was dissolved in 2003. 
The SESRO would be responsible for building a Senior Executive 
Service that reflects this Nation's diversity through strategic 
partnerships, more stringent reporting requirements, and 
mentorship programs.
    What recommendations would you make for improving diversity 
in the SES?
    Ms. Griffin. Frankly, I followed that bill since it was 
introduced the first time, and I agree with what you are trying 
to accomplish, that we need to have more of a diverse senior 
staff. I think a lot of times that is how you foster more 
diversity throughout the whole Federal Government.
    And I agree with you. I think that we should have an office 
dedicated at OPM to make sure that happens.
    Senator Akaka. I am a strong supporter of increasing 
supervisor training in a workforce. As I mentioned in my 
statement, I recently introduced the Federal Supervisor 
Training Act, S. 674, to provide initial and ongoing mandatory 
training to Federal supervisors. OPM would play a vital role in 
providing agencies with the resources that they need to meet 
these training requirements.
    What are your views on the training of Federal supervisors 
currently and what they currently receive, and what 
improvements do you believe should be made?
    Ms. Griffin. I think we need to do a lot more in that area. 
I see sometimes that we tend to promote people because they 
have been there, they are next in line, and they know the work 
that is being done.
    And yet, we very rarely try to find out if they will be 
good supervisors. Will they be able to actually lead people? 
Will they be able to evaluate them appropriately?
    Will they be able to understand the hiring process 
themselves because now they will have a role in actually doing 
that? Do they understand the human resources (HR) process and 
are they going to be effective as hiring managers because a lot 
of times as supervisors that is what they are becoming as well?
    So I would support anything that we could do to increase 
the training opportunities--and frankly, mandatory is probably 
a good way to go--so that we actually ensure that everyone who 
does become a supervisor has to have some level of training to 
do that job.
    Senator Akaka. As you may know, I introduced a Non-Foreign 
Area Retirement Equity Assurance Act, which is S. 507, to 
transition employees in Hawaii, Alaska, and the Territories 
from a non-foreign cost-of-living allowance (COLA) into 
locality pay while protecting employees' take-home pay. Your 
pre-hearing responses indicated support for this transition and 
a pledge to work with stakeholders, and I want to thank you for 
that response.
    This is a complicated issue, and I am concerned that 
affected Federal employees may misunderstand how this 
transition affects them. If confirmed, how will you work to 
ensure that OPM appropriately educates Federal employees in 
Hawaii, Alaska, and the Territories about the transition from 
non-foreign COLA to locality pay?
    Ms. Griffin. I would work with Director Berry and other 
people at OPM to develop some sort of a training program that 
we could deliver to those people because I think you are right. 
I think it will be complicated, and people will have to 
understand how it will impact them and their pay. I think we 
would have to look at everything possible, including if we 
should send people to those States and areas to talk to people 
about what their rights are and how they actually make those 
changes within their pay system.
    Senator Akaka. For Federal agencies to be most effective, 
it is important that agency management and labor organizations 
representing Federal employees work together. In the last 
Congress, I introduced a bill that would reestablish labor-
management partnerships in the Federal Government. I believe 
these partnerships will make Federal agencies more productive 
and will increase employee morale.
    I understand that the Obama Administration is considering 
establishing labor-management partnerships in the Federal 
Government. Based on your experience, what benefits do you 
think would come from the reestablishment of labor-management 
partnerships in the Federal Government?
    Ms. Griffin. I have the benefit of having been at the EEOC 
in 1995 and 1996, working for Vice Chair Paul Igasaki, when the 
partnerships were being developed then. And I also have the 
benefit of now coming back to the EEOC at a time when they no 
longer exist. And I can tell you firsthand that there is a huge 
difference, and I think it will be important.
    I do not know what it will be called or what form it will 
take, but there has to be a better partnership between agency 
management and our labor unions.
    I have seen back when they were formed that there was a 
great partnership and a lot of interaction and collaboration 
about decisions that were being made that would affect all 
Federal employees. And now I see a time when even I, as a 
supporter of the Federal union at the EEOC, find that because 
there is not that partnership anymore, sometimes something I 
would say or do would inadvertently be seen as something that 
was against them. So I really do think we have to establish 
better trust and have a better partnership.
    Senator Akaka. In their Best Places to Work in the Federal 
Government rankings for 2009, the Partnership for Public 
Service ranked OPM 20th out of 30 large Federal agencies. 
Strategic management and effective leadership were two of OPM's 
lowest scores.
    If confirmed, you will be responsible for addressing human 
capital challenges within OPM as well as government-wide. What 
steps will you take to identify and respond to such challenges 
within OPM?
    Ms. Griffin. I think we have to review everything, and I am 
sure Director Berry is in the process of doing this, but I 
would like to join him in reviewing everything that goes on at 
that agency. I think it is important that OPM is the model 
agency for all the others and that, if morale is not good, we 
reestablish good morale, and we do that by communicating with 
all of the employees at OPM. I know that is Director Berry's 
style, and he has already begun to do that.
    I think just being open with people and being clear and 
direct about what you are trying to change and why you are 
trying to change it makes change less threatening to people who 
have done things a certain way for a long time or think 
whatever they are doing is the way it should be done.
    I think we have a good opportunity to work with the folks 
at OPM and change the morale there, and hopefully that will 
spread to the other agencies.
    Senator Akaka. Thank you very much for your responses. I 
would like to now call on Senator Voinovich for his questions.
    Senator Voinovich. I am going to go over some things that 
we talked about in my office.
    Have you had a chance yet to talk about what your portfolio 
is going to be with Director Berry?
    Ms. Griffin. No. As I said to you when we met, we have 
talked very broadly about issues like the Model Employer 
Concept for the whole Federal Government and for the agency, 
diversity, veterans issues, and the hiring process.
    Senator Voinovich. I am really interested in OPM's internal 
management. I am very interested in it because in many 
instances the agency heads focus on the operational challenges, 
and the day-to-day management falls into the hands of the 
deputy.
    Ms. Griffin. I think Director Berry is very hands-on 
himself, so I cannot imagine that he is just going to go off 
and focus on the big picture.
    Senator Voinovich. I am real interested in knowing what it 
is that you are going to be assigned to do.
    Ms. Griffin. You requested that we actually come in and 
talk to you. I think we would be happy to do that.
    Senator Voinovich. Yes. I would appreciate that.
    The other thing I am interested in, as you know, is pay for 
performance. The Transportation Security Administration (TSA) 
has a system outside of Title V, and the unions have been very 
upset about this because they want to unionize TSA.
    I understand that there is a study underway at TSA. We also 
have the National Security Personnel System in the Department 
of Defense, with 200,000 people under a system that rewards 
individual performance.
    I would like to get your opinion. Where do you stand on 
that?
    Ms. Griffin. I do not really have an opinion. I do not know 
enough about it, and I do know that the study is underway. I 
saw that people have been appointed to the task force--I think 
it is a task force--and they are going to study the system and 
then come back with some recommendations.
    I also know that I have read that the unions and Director 
Berry said that they are going to work together to come up with 
some sort of a plan. So I am hopeful that the study that is 
underway will give us some clear direction in this area.
    Senator Voinovich. Senator Akaka and I have worked to 
provide flexibilities to ensure that the government has the 
right people at the right place at the right time. Some 
agencies have failed to use the flexibilities that we have 
given to them, and we are interested in why they are not using 
the flexibilities.
    Other agencies have been given specific help, including the 
Nuclear Regulatory Commission, the Government Accountability 
Office, and the National Aeronautics and Space Administration. 
And I do not know whether Senator Akaka is aware of this, but 
the three agencies to which we have given special provisions in 
addition and outside of Title V are No. 1, 2, and 3 in terms of 
employee satisfaction according to the Best Places to Work 
rankings.
    These flexibilities obviously have helped them recruit the 
right people and apparently have helped create a good 
environment there. What would your thoughts be about making 
these flexibilities available throughout the Federal Government 
and just amend Title V, or do you think we should just wait for 
agencies to talk to us about their specific problems and then 
try to respond?
    Ms. Griffin. I actually think we should take a look at all 
of it. There are a lot of hiring waivers and flexibilities that 
are available that some agencies are using, some are not, and 
some are coming to you to ask permission to use something that 
may even exist already. And so, I think OPM has to do a better 
job of actually developing some training around this and giving 
folks at the agencies the opportunity to learn more.
    I have become very frustrated with the Schedule A hiring 
authority that is available to hire people with severe 
disabilities very quickly into the Federal Government. As a 
matter of fact, I think that a lot of veterans with 
disabilities would benefit by going through the Schedule A 
process as well. And yet, I cannot tell you how many agencies 
do not use it, do not know about it, or, if they use it, use it 
inappropriately and ineffectively, thereby really changing what 
it was created to do, which was get someone with a severe 
disability quickly into the Federal Government.
    So I am interested in looking at all of the flexibilities 
and waivers. I do not know all of them right now, but I think 
we could do a better job of helping the agencies understand 
what they already have the ability to do and helping them do 
it.
    Senator Voinovich. You are very interested in providing 
individuals with disabilities an opportunity to work for the 
Federal Government and ensuring veterans' preference is adhered 
to. What thoughts are you going to bring to OPM to guarantee 
that some of the provisions you just talked about are actually 
taken advantage of by the departments?
    Ms. Griffin. I think we have to do, again, a better job of 
communicating with the other agencies. I think a lot of times 
when they learn about these flexibilities and waivers and they 
learn that they can actually shorten the hiring process from 6 
months to a year down to a matter of weeks or a month, frankly, 
they start to realize the advantage of doing that. And I think 
once they have a very good employee who happens to have a 
disability or happens to be a wounded warrior, they start to 
realize this is a very good, efficient system, and using the 
waiver becomes more popular.
    There are agencies--and I will give you the example of the 
National Security Agency (NSA)--that have demonstrated good 
leadership in hiring qualified people with disabilities. I do 
not even know what NSA does, and we are probably not supposed 
to. But NSA is an agency that understood that they needed 
special talent at their agency to do whatever they do, and they 
also understood that they did not care what package that came 
in.
    So they have been, for years, seeking people with severe 
disabilities to work at the agency, but there are very specific 
qualifications that they need to meet. It does not matter to 
them if a person is deaf or if a person is a quadriplegic. They 
understand that they can accommodate them very easily. What 
they are looking for is the brains that are coming in whatever 
the package looks like.
    And I think we need to be able to demonstrate best 
practices like that to the other agencies, who, for whatever 
reason--I think it is societal--have a perception that someone 
with a disability is inherently less qualified. It is just not 
true. We need to change that thinking in the Federal Government 
because I think if we do not change it there, we are not going 
to change it in the private sector.
    Senator Voinovich. I wonder if anybody in the 
Administration ever does a performance evaluation of our 
secretaries in looking at their record in this area.
    When I wanted something done when I was governor or mayor, 
I put it as part of somebody's performance evaluation.
    Ms. Griffin. What gets measured gets measured, right?
    Senator Voinovich. It was very interesting how it made a 
difference.
    I think that this would be one way that you could get folks 
serious about this opportunity that we should be taking 
advantage of, that NSA is, but some others are not.
    I look forward to working with you, and God bless.
    Ms. Griffin. Thank you very much, Senator. I look forward 
to working with both of you as well.
    Senator Akaka. Thank you very much for those questions, 
Senator Voinovich.
    Ms. Griffin, the Federal Government currently has a unique 
opportunity to recruit more undergraduate students to public 
service than at any time in decades. Reports suggest that with 
the economy struggling, young people in this country are 
attracted to the stability of the Federal Government. Moreover, 
I believe that President Obama has re-invigorated interest in 
public service.
    It is important that the Federal Government do as much as 
it can to capitalize on this opportunity to bring a new 
generation into the Federal workforce. How do you plan to 
recruit young people, in particular, current undergraduate 
students, into the Federal workforce?
    Ms. Griffin. I think this is another area where there are a 
few agencies that do a very good job at this and a lot of 
agencies do not. A lot of agencies actually do not go out and 
do targeted recruitment for the people who they are looking for 
at colleges and universities.
    This is, as you said, a very exciting time, and I am happy 
to be a part of it because I think we are going to see a real 
change in the Federal Government as an employer and how it is 
perceived. And for young people to be excited about it is 
important, and for us to make it easier for them to apply for 
jobs and to get in is important. But getting to them first and 
making them realize that it is a good option for them is 
important.
    I hope at OPM that we can do a lot more in the area of 
actually recruiting and that we can help other agencies, 
whether we do it for them, whether we do it with them, whether 
we do it in some collaborative fashion, and that we really 
start looking more closely at how we recruit folks. And, again, 
there are some agencies that do a very good job of it by 
themselves, and maybe we can look at them for best practices on 
how to do it.
    I am excited about that aspect. I think it is something 
that we probably have not done as much of. I think in times 
when resources are tight, we actually say that is not 
important, we do not have money for that, when you really have 
to look at it and say, no, that is something we do have to pay 
attention to. It is not something we cannot spend resources on.
    Senator Akaka. I am a strong supporter of employee 
mentoring and apprentice programs and believe that these 
programs can assist the Federal Government in developing a 
skilled and talented workforce. Employee mentoring will take on 
an even larger role in the coming years with more young people 
joining the Federal workforce and a large number of employees 
eligible to retire.
    What is your evaluation of the existing mentoring programs 
in the Federal Government and what recommendations do you have 
for improving them?
    Ms. Griffin. I think it is ``catch as catch can'' right 
now. I think some agencies do it, but you see very little 
demonstration of it government-wide.
    I think there are a lot of things that we could do, 
especially because we are expecting this big retirement wave. 
We need to match people up and start sharing skills that the 
older workers have and the younger workers need, and some of 
the historical knowledge is always good to have, too, so that 
you are not reinventing wheels.
    So I would hope that we could figure out a way to institute 
it in the senior leadership at various agencies, and I know 
that mentoring is something that Director Berry is very 
interested in, and I would love to help him come up with a plan 
to do it.
    Senator Akaka. For the past 3\1/2\ years, you have served 
as a Commissioner and Acting Vice Chair of the Equal Employment 
Opportunity Commission. Your work at the EEOC has focused on 
diversity and a more equitable employment opportunity system in 
the private sector and the Federal Government. How do you feel 
your experience at the EEOC will assist you in your new role as 
Deputy Director of OPM?
    Ms. Griffin. I think it is interesting that, as I learned 
more and more about what was happening with diversity, 
especially with people with disabilities and veterans 
government-wide, the more I learned as a Commissioner at the 
EEOC, the more I realized that everything that I wanted to 
change or have a bigger impact on really happened at OPM and 
not at the EEOC. So I cannot tell you how happy I am and 
delighted that I may have the opportunity, if confirmed, to 
actually do that.
    A lot of these things that I have been looking at, such as 
increased use of hiring waivers or flexibilities, looking at 
the diversity issue in the most senior levels of our 
government, as well as everything at the lowest levels, are 
important issues that I wanted to work on. And so, all of those 
things that I have learned as a Commissioner, when looking at 
all of the data that we collect from the various agencies and 
interacting with the equal employment opportunity directors and 
other folks at the Federal agencies, a lot of the fixes that 
will help the Federal Government become a better employer 
really can only be done at OPM.
    Senator Akaka. This is my final question before I ask 
Senator Voinovich for his final questions as well.
    Coming from the EEOC, I am sure that you will be spending a 
significant portion of time studying to get up to speed on many 
aspects of Federal personnel policy and the workings of OPM. As 
you approach these new topics, what will be your guiding 
principles in making policy decisions?
    Ms. Griffin. I think as I go through that process, I would 
spend a lot of time listening to the career folks who have been 
involved in various aspects of the work at OPM, but my guiding 
principle would always be what is best for the Federal employee 
because I think that is what OPM should be focusing on.
    How do we make this the best working environment for the 
Federal employee? As we look at policy and changes that we make 
to the personnel system, the health benefits, retirement, you 
name it, what is really best for them?
    What is going to give us the best motivated employees and 
the most talented employees and from the most diverse 
population so that we actually have a government that reflects 
the society that we are serving? That would be my guiding 
principle.
    Senator Akaka. Thank you very much.
    Ms. Griffin. Thank you.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. The last one, and I forgot to ask this 
question, is you know I have sponsored legislation to require 
agencies to develop rigorous performance management systems so 
people know where they stand.
    And a provision of that says that if there is an 
unacceptable performance appraisal, then that individual does 
not get an automatic pay increase. The latter provision would 
impact less than 3 percent of the 1.8 million employees that we 
have, who, quite frankly, could lower morale for the 
overwhelming majority of the other people who are in the 
departments.
    I have received bitter complaints from people who have left 
the Federal Government. They just said: Forget it. I have 
worked my butt off. Why do it?
    I am encouraged by the President's focus on improving 
government performance, and I asked you to look at this 
legislation. I would like to know what your opinion of it is.
    Ms. Griffin. I think it goes back to the supervisor 
training. I think when you put someone in a position where they 
are supervising someone, they should know how to do it and how 
to supervise someone and know what the parameters are for doing 
that. So, if someone is not doing their job, there has to be a 
way to deal with that.
    We see a lot of times that it is easier to just give 
someone an acceptable performance appraisal because otherwise 
it is a little more paperwork and the person may file a 
complaint. But we are not doing anyone any favors by allowing 
those people to not do their job.
    And you are right. If you have a whole group of people not 
working, it does destroy the morale of everybody else.
    Whether it is the General Schedule (GS) system that we have 
or something else in the future, there always should be a 
mechanism for rewarding the performers and dealing with the 
people who do not perform, and I think it currently exists in 
the GS system, although it probably is not used appropriately.
    I really do think it goes back to picking people who are 
good managers to be supervisors.
    Senator Voinovich. That is interesting because I think that 
I am going to ask my staff to look at that, and the reason why 
I am acknowledging that is that I recall when I became Mayor of 
the City of Cleveland, people complained that they had people 
working for them who were not performing and there was nothing 
they could do about it.
    Ms. Griffin. Yes.
    Senator Voinovich. I asked them to go back and look at the 
procedure. After they reviewed it, and we had some training, it 
was interesting that they were able through the system that 
existed to get at the folks who were kind of thumbing their 
nose at the system. And we were able to be a lot more 
successful.
    Ms. Griffin. Yes, I agree with you.
    Senator Voinovich. I think that is interesting to look at, 
just what is available now and find out whether or not what is 
out there is actually being used. And then if it is not being 
used, then why not?
    Ms. Griffin. Right. I agree with you. I think systems 
always have a way for you to deal with someone who is not doing 
their job and is not performing.
    And there is sometimes this perception problem, as you 
said. Someone will say, well, we cannot get rid of them. Of 
course, you can. That does not even make sense to think that 
you could have someone who does not do his job and you just 
have to tolerate that and let him not do his job. There is 
always a way to deal with it, and it may be a process that you 
have to follow, but you follow that process.
    At the end of the day, if you are doing it right and you 
can document that this person was not doing his job, there has 
to be a way to deal with that, whether it is through 
progressive discipline, all the way to termination. But there 
is a way.
    Senator Voinovich. I would also like to mention that we are 
just talking about one aspect of this, but for the record, I 
want everyone to understand that I think that overall the 
people who work for the Federal Government are doing an 
outstanding job.
    Ms. Griffin. I agree.
    Senator Voinovich. Thank you.
    Ms. Griffin. Yes, it is always a very small percentage, to 
be honest with you, and I think people are afraid of people 
filing complaints. But when we look at the numbers, people who 
file complaints are also about 1 percent of the whole Federal 
workforce.
    Senator Voinovich. Thank you.
    Ms. Griffin. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    You can see why we have been able to do as much as we have 
done, and there is so much more to do. Senator Voinovich's 
experience is a great asset to this Committee, and I really 
love it when I hear him say, when I was a mayor, or when I was 
a governor, bringing those personal experiences back and posing 
the problems that he had then. It helps to answer some of our 
problems here, but we have so much more left to do.
    But we are making progress, and we are really looking 
forward to working with you.
    I do not have any further questions, but there may be 
others on the Committee who have questions. The hearing record 
will remain open until the close of business Friday for Members 
of this Committee to submit additional statements or questions.
    Again, I want to thank you so much for being here. It is 
good to have met your family and your friends and your 
supporters. It is my hope that the Committee will vote in the 
near future and that your nomination will be considered soon by 
the full Senate.
    With that, this hearing is adjourned.
    Ms. Griffin. Thank you very much. Thank you both.
    Senator Akaka. We will reconvene immediately for Mr. Nash.
    [Recess.]
    Senator Akaka. Thank you very much for being here.
    This hearing will come to order. I want to welcome you all 
to the second part of today's proceedings as the Committee on 
Homeland Security and Governmental Affairs considers the 
nomination of Stuart Nash to be an Associate Judge of the 
District of Columbia Superior Court.
    I want to extend a special welcome to Mr. Nash and to his 
lovely family and friends. Mr. Nash is the most recent nominee 
in a series of well-qualified candidates for D.C. judgeships 
referred to this Committee. I am pleased to hold this hearing 
today and am confident that, if confirmed, Mr. Nash will join 
others who have appeared before us in making valuable 
contributions to the D.C. court system.
    Mr. Nash has a strong legal background and currently is an 
Associate Deputy Attorney General and Director of the Organized 
Crime and Drug Enforcement Task Forces. Before heading the 
Department of Justice (DOJ) task forces, he spent many years 
practicing criminal law as an Assistant U.S. Attorney for the 
District of Columbia, spending one of those years as a detailee 
to the Senate Judiciary Committee.
    I believe Mr. Nash has much to offer the D.C. Superior 
Court and hope we can quickly act to confirm him.
    I now turn to my good friend, Senator Voinovich, for his 
opening statement.
    Senator Voinovich. Mr. Chairman, I have no opening 
statement.
    Senator Akaka. Thank you, Senator Voinovich.
    The nominee has filed responses to a biographical and 
financial questionnaire submitted by the Committee. Without 
objection, this information will be made a part of the record 
with the exception of the financial data, which will be kept on 
file and made available for public inspection in the Committee 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
at this time, I ask you to please stand and raise your right 
hand to take the oath.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Nash. I do.
    Senator Akaka. Thank you. Let the record note that the 
witness responded in the affirmative.
    Mr. Nash, I understand you have friends here today with 
you. We have met your lovely family as well. I would like to 
give you an opportunity to introduce your family and friends 
before we proceed with your statement.
    Mr. Nash. Thank you very much, Senator Akaka.
    I have with me my wife, Mary; my eldest son, William; my 
middle son, Christopher; and my youngest daughter, Loretta. My 
father, Gordon, is seated right behind them. And I have a 
number of colleagues from different portions of my professional 
career who are here in support. I will not take the time to 
introduce them all individually, but thank you for the 
opportunity.
    Senator Akaka. Thank you. It is wonderful to see your loved 
ones here supporting you, and I am sure they are proud of all 
you have accomplished. It was interesting to hear about your 
background prior to this hearing.
    Mr. Nash, will you please proceed with your statement?

   TESTIMONY OF STUART G. NASH\1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Nash. Thank you very much, Mr. Chairman and Senator 
Voinovich. I am honored to appear before you today to have you 
consider my qualifications for a position as an Associate Judge 
on the D.C. Superior Court.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nash appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    I have introduced my family who are here with me today, and 
there are a number of people who I do need to thank. But first 
and foremost, I would like to express my appreciation to my 
family who have nourished me for so many years, both 
emotionally and intellectually, and have made such substantial 
sacrifices to allow me to pursue a career in public service.
    As I had mentioned, there are a number of people here in 
the gallery who have been important role models and colleagues 
at different stages of my professional career, and while I will 
not take the time to acknowledge them individually, I would 
like to express my appreciation to them for being here today 
and also for sharing their wisdom, their integrity, and their 
good counsel with me on so many different occasions in the 
past.
    I would like to thank the members of the D.C. Judicial 
Nomination Commission for recommending me to the White House 
and President Barack Obama for nominating me.
    Finally, I would like to thank this Committee for acting on 
my nomination in such a thorough and timely fashion. Throughout 
the vetting process, the staff of this Committee has treated me 
with the utmost professionalism and courtesy, for which I would 
like to express my appreciation.
    I feel extraordinarily blessed to be under consideration 
for a position as a judge in this city that I love so well.
    I was born in New York City and raised in northern New 
Jersey where I attended the public schools. I received by 
bachelor's degree from Duke University and my law degree from 
Harvard Law School. I gained great respect for the judicial 
vocation while clerking for two exceptional jurists, Chief 
Judge Sam Ervin of the U.S. Court of Appeals for the Fourth 
Circuit and Judge T.S. Ellis of the Federal District Court in 
the Eastern District of Virginia.
    I worked as a defense attorney for 3 years at the law firm 
of Williams and Connolly here in the District of Columbia and 
then for over 8 years as an Assistant U.S. Attorney here in 
D.C. In both capacities, I had extensive contact with the D.C. 
Superior Court, and I came to appreciate the great capacity 
that exists for dedicated judges on that court to improve the 
lives of our fellow citizens by presiding over cases fairly, 
impartially, and with respect for the dignity of the litigants.
    For the last 4 years, I have served in the Office of the 
Deputy Attorney General for the United States as an Associate 
Deputy Attorney General directing a nationwide task force that 
targets the most powerful international drug cartels.
    As rewarding as it has been to tackle issues with national 
and international repercussions, I have never lost my love for 
the place where I first learned the practice of law--D.C. 
Superior Court. More often than not, our fellow citizens' 
interactions with D.C. Superior Court come at a time of crisis 
in their lives. At that particular moment, there is nothing 
more important to them than the outcome of their cases. In 
light of that, there is an opportunity for a dedicated public 
servant to affect people's lives for the better in a way that 
is without parallel anywhere else in government. It is truly 
where the ``rubber meets the road.''
    I am honored to be considered for this position, and I look 
forward to answering any questions the Committee might have 
about my qualifications. Thank you.
    Senator Akaka. Thank you. I will begin with the standard 
questions this Committee asks all nominees and would like you 
to answer each question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Nash. No, there is not.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Nash. No.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Mr. Nash. I do.
    Senator Akaka. Thank you very much for those responses.
    Before I begin with my questions, I would like to say for 
the record that the comments of Delegate Eleanor Holmes Norton 
in support of Mr. Nash appear earlier in the hearing record.\1\
---------------------------------------------------------------------------
    \1\ The testimony of Hon. Eleanor Holmes Norton introducing Stuart 
Nash appears on page 6.
---------------------------------------------------------------------------
    Senator Akaka. Mr. Nash, you spent many years in private 
practice and public service, including the last 5 years as an 
Associate Deputy Attorney General at the Department of Justice. 
Why did you seek this nomination and what contributions do you 
hope to make if confirmed?
    Mr. Nash. Senator, as I pointed out in my opening remarks, 
I do feel that the D.C. Superior Court provides a very tangible 
way to give back to the community, that the rights that are 
adjudicated in that court are of the utmost importance to the 
citizens of this city, and at that particular instant there is 
nothing more important to the people of the city than the case 
that they are embroiled with. Because of that, I think there 
really is an opportunity to affect people's lives for the 
better.
    I am in an environment right now where I deal with national 
and international issues, and as a result, my efforts are 
diffused across a very wide swath of the public. I really 
looked forward to going back to a situation where my efforts 
are focused and tangible and I can improve people's lives more 
on a one-by-one basis.
    Senator Akaka. As with many courts, D.C. Superior Court 
judges must manage heavy caseloads. It sometimes can be 
difficult to strike the balance between moving one's docket and 
judiciously reviewing the merits of a case. Please discuss how 
you plan to find that balance as an Associate Judge.
    Mr. Nash. Senator Akaka, I practiced in the D.C. Superior 
Court, and I am aware of the pressures. I think I thrived in 
that environment, the first brush I had with it, as a 
practicing lawyer both on the defense side and as a prosecutor. 
It does require working long hours, working hard, and putting 
in a maximum effort because you are absolutely right, the 
caseload in the D.C. Superior Court is a crushing caseload and 
the judges work very hard. So I am going in with my eyes open, 
knowing that this is not a job for the faint-hearted.
    I do think that it is important to move cases quickly. It 
is a cliche that justice delayed is justice denied, but it is 
no less true for the fact that it is a cliche. And so, I think 
there is a premium on moving cases quickly and doing it in a 
way that is both economical in terms of time but also fair and 
thorough, and that is the balance that I hope to strike.
    Senator Akaka. Thank you. Mr. Nash, your practice in the 
private and public sectors focused heavily on criminal law. You 
spent many years prosecuting criminals who violated Federal 
law, and currently you lead the DOJ Organized Crime and Drug 
Enforcement Task Forces.
    How will you handle the challenges of overseeing civil 
cases as a judge and what steps will you take to familiarize 
yourself with civil law and procedure?
    Mr. Nash. Before I joined the U.S. Attorney's Office, I did 
have a substantial opportunity to practice civil law in private 
practice. And currently, in addition to leading the Organized 
Crime and Drug Enforcement Task Forces, in my capacity as an 
Associate Deputy Attorney General, I also have stewardship over 
a range of issues related to money-laundering and asset 
forfeiture, and the asset forfeiture in particular has a 
substantial civil component. So my current job has caused me to 
reeducate myself regarding civil law as well as criminal law.
    So I do feel like I have a relatively strong background in 
civil law, but there is no question that the bulk of my 
experience over the last decade has been criminal law. I 
actually look forward to an opportunity to experience the 
variety of dockets in Superior Court and to have both criminal 
responsibilities and civil responsibilities. I know the D.C. 
Superior Court has first-rate training opportunities, and I 
certainly will take full advantage of that and go in there with 
every expectation of learning the area of law to which I am 
assigned.
    Senator Akaka. Mr. Nash, as you know from your experience 
as an Assistant U.S. Attorney, courtrooms can sometimes be 
emotionally charged places, especially when people feel they 
have been wronged either by government or by any person. What 
steps will you take to maintain a courtroom environment in 
which all parties feel their views are considered?
    Mr. Nash. I do think that is one of the most important 
aspects of the judicial demeanor, and what I hope to bring to 
the bench is the understanding that this is a competitive 
process. There generally are winners and losers in the 
litigation process, and you cannot paper over the fact that 
some people leave the courtroom as winners but other people 
leave as losers.
    I think with the judges that I have seen and most respected 
in my practice all of the litigants, both the winners and 
losers, leave with the impression that their case was fairly 
heard, that their arguments were listened to, that the judge 
took the time to reflect on their arguments and treated them 
with dignity, and that is the way I expect to model myself when 
I take the bench. I absolutely want every litigant who appears 
before me to fully recognize that I have listened to their 
arguments and done so in an open-minded fashion and without any 
preconceived notion as to who the winner in the litigation 
should be.
    Senator Akaka. Thank you. I have a final question that I 
will hold until after Senator Voinovich is through with his 
questions. Senator Voinovich.
    Senator Voinovich. Obviously, you are qualified for the 
job, Mr. Nash. You have practiced law for a long time. What 
were the characteristics of the judges that you have had to 
deal with that you would like to emulate and that you would not 
want to emulate? I have seen people who have almost changed 
personalities once they got on the bench.
    Mr. Nash. I think that is right, Senator. We have all seen 
our colleagues. Sometimes it is the person that you least 
expect who will don the robes and suddenly take on a very 
dictatorial demeanor from the bench.
    Frankly, the trait that I find most effective and most 
appealing in a judge is humility. Whether the judge wants to 
admit it or not, it is always the case that the two litigants 
who are appearing before him or her know more about the case 
than the judge does at the start of the case. Judges, 
oftentimes I have seen, will get themselves in trouble by 
projecting that they know the most of anyone in the room, that 
they are the smartest person in the room and know more about 
the facts than the litigants do.
    And so, the humility to sit on the bench and learn from the 
litigants in a true fashion, learn about the facts of the case 
and make sure that you have a full fact set before rendering 
your decision, I think, is the trait that we all like to see 
from judges. I think the personality trait that makes that most 
likely to occur is humility, and I do think that I bring that 
to the bench.
    Senator Voinovich. Senator Akaka, that is all I am going to 
ask.
    Senator Akaka. Well, thank you very much, Senator 
Voinovich.
    Mr. Nash, as a judge, it will be important to work 
effectively with different personalities and people who will 
not always agree with your decisions or with each other. I was 
glad to hear you say something about humility. How would you 
describe your temperament and style of resolving conflicts?
    Mr. Nash. I do think that one of my great formative 
experiences in life was the time that I was trying cases in 
Superior Court. We touched already on the fact that it is a 
pressure-packed environment, often a chaotic environment. There 
were instances when I felt like my work was done for the day, I 
was on my way back to the office, and someone would hand me a 
file and say, go try this case right now in that courtroom. And 
so, I did very early in my legal career learn to roll with the 
punches, think on my feet, and respond to unexpected 
developments in a productive fashion.
    I think having had that experience has been invaluable, and 
it has become part of who I am as a lawyer. I do think that I 
am able to maintain a calm demeanor, an unflappable demeanor in 
the face of pressure, in the face of unexpected developments. I 
think, again, that this is a trait that I would cite as one 
that is beneficial for a judge to have, and I think that I will 
be a fair, impartial, and calm judge no matter what is thrown 
at me.
    Senator Akaka. Thank you very much for those closing 
remarks. I want to thank you and thank all of those who are 
here to support you.
    There may be additional questions for the record, which we 
will submit to you in writing. The hearing record will remain 
open until the close of business tomorrow for Members of this 
Committee to submit additional statements or questions.
    And I want to thank you very much, Mr. Nash, for being here 
and for all of your responses. I am pleased to be able to hold 
a hearing for such well-qualified nominees as you and Ms. 
Griffin, and it is my hope that the Committee will soon vote 
and that your nominations will be considered by the full Senate 
very shortly.
    Again, I want to thank Mary, your wife, and also William, 
Chris, and Loretta, and of course, Gordon, your dad, for being 
here, as well as others who are here too. Thank you all for 
coming to support Mr. Nash.
    This hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]



















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
